 Department of Health and Human Selv1ces
         OFFICE OF
    INSPECTOR GENERAL




RESPITE CARE SERVICES FOR FOSTER
   PARENTS - SIX CASE STUDIES




              SER"I('l"


                          JU GIBBS BROWN
                          Inspector General
                             AUGUST 1994
            q""d3a
                             OEI- 0493-0071
                                                                      . -




                       OFFICE OF INSPECTOR GENERA

The mission of the Office of Inspector General (DIG), as mandated by Public Law 95- 452 , as
amended , is to protect the integrity of the Department of Health and Human Services ' (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits , investigations , and
inspections conducted by three DIG operating components: the Offce of Audit Service , the
Offce of Investigations , and the Offce of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                          OFFICE       OF   AUDIT SERVICE
The OIG' s Offce of Audit Servces (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carryng out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste , abuse, and
mismanagement and to promote economy and effciency throughout the Department.

                          OFFCE OF INTIGATIONS
The OIG' s  Offce of Investigations (01) conducts criminal , civil , and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions
administrative sanctions , or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFCE OF EVALUATION AN INSPECTONS
The DIG' s Offce of Evaluation and Inspectiors (DEI) conducts short- term       management and
program evaluations (called inspections) that focus on issues of concern to the Department
the Congress , and the public. The findings and recommendations contained in these inspection
reports generate rapid , accurate , and up- to- dale information on the effciency, vulnerabilty,
and effectiveness of departmental programs.

DEI's Atlanta Regional Offce staff prepared this report under the direction of Jesse J.
Flowers , Regional Inspector General , and Christopher Koehler, D puty Regional Inspector
General. Principal DEI staff included:
Atlanta Region                                               Headquarters

Paula Bowker , Project Leader                               Alan Levine , Program Specialist
Ron Kali
Ruth Reiser
Maureen WHce

               EXECUTIVE SUMMAR Y

PUROSE
To describe characteristics of effective programs which provide respite care servces to
foster parents.

BACKGROUN
Between 1983 and 1992 ,   the number of foster care children increased about 74
percent while the number of family foster homes declined about 11 percent. A major
reason for the decline in foster homes is the stress involved in caring for foster
children -- particularly children with special needs.

Foster care experts and advocates generally agree that provision of respite care for
foster parents helps recruit and retain foster parents. For example, a 1992 study
sponsored by the Administration for Children and Familes (ACF), Department of
Health and Human Services (HHS) showed , and several experts have concluded that
respite care is one of the top needs of foster parents. Retaining foster parents helps
keep foster care children out of " at risk" environments and institutions , as intended by
Federal statutes and regulations.

SCOPE AN      METIODOLOGY
We studied six programs selected from 27 that child welfare experts and public
officials operating child welfare programs recognized as effective at providing respite
care. We defined respite care as planned , temporary, periodic relief from foster care
responsibilties for foster parents. Respite care is intended to relieve foster parent
stress and prevent disruption of placements of foster children. Our selected six
programs provided wide geographic dispersion throughout the United States , and they
represented urban and rural populations , public and private administration , and a
variety of target populations. We interviewed child welfare program offcials and
experts at HHS , selected States and counties , and various organizations which have an

selected program.
interest in foster care. We also analyzed respite care servces provided by each


FIINGS
Respite care can be provided effectively in varius   ways

No single model program or blueprint is essential for providing respitelcare to foster
parents. The six programs we inspected differed in a number of ways , including
program management , program requirements for respite services , criteria for providing
respite care , settings for respite care , types of respite care providers , payment
methods , and target populations.
 For example ,three programs were operated by private organizations while three were
 operated by government child welfare agencies. Two programs provided respite care
 to all foster parents , but four served only foster parents of special needs foster
 children. Five programs used compensated providers and one used volunteers.

 Effectie respite programs share some commn characteritic

 Although there was no blueprint for an effective respite program , the six programs we
 inspected shared some common characteristics. In each program , respite care was
 established to meet a specific need. Each program was affilated with an established
 organization that served foster children. An programs promoted teamwork and trust.
 Each program screened , trained , and monitored respite providers. Lastly, each
 program was flexible to meet changing respite needs.

Fedral and State suppon have been imponant       elents of respite programs
All six programs received Federal or State financial support when started , or they
made program enhancements with government funds. Two of the six programs
received Federal financial support to get started or they evolved from other Federally
funded programs. A third program was s. :arted with private funds but later received
Federal funds from various sources , such as Title XX of the Social Security Act. A
fourth program started with private funds and later obtained Federal funds for
program enhancements. A fifth program started with State funds but now operates
with Federal funds. The sixh program started with county funds and later obtained
State funds to make program enhancements. The sixth program now operates with
Federal , State , and county funds , and private donations.

CONCLUSION

This report shows that while recognized ,
                                     successful respite programs differ, certain
program elements are common to each. The Administration for Children and
Familes should provide recognized effective practices for providing respite care to
States , counties and private sector organizations. Such information will help officials
involved in developing respite care programs learn what works. For example
                                                                                , public
and private sector officials involved in developing State five-year plans to implement
Family Preservation and Family Support Servces authorized by the Omnibus Budget
Reconcilation Act of 1993 should find information on respite care of particular
interest.

Another OIG report that can be useful in planning respite servces is titled " Respite
Care Services for Foster Parents " (OEI- 04- 93- 00070). That report provides
information on availabilty of respite care , use of respite care
                                                               , primary ource of
respite care providers , and barriers to respite care use.
                                                                                            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. . . .. .. .. .. .
                                                                                                                                                                                           . .
                                                                                                                                                                                             . . . ..




                                                                                               TABLE OF CONTENTS€
                                                                                                                                                                                               PAGE€
EXECU SUMY€
INODUCfON . €                                                                                                                                                               . . . . . . . . . . . . . 1



FIINGS. .                                                                                                                                                           . . . . . . . . . . . . . . . . . 6€
  . Respite Care Can Be Provided In Various                                                                                                 Ways. . . . . . . . . . . . . . . . . . . . . . . . 6
  . Effective Respite Programs Share Some Common€
    Characteristics. . . . . . . . . . . . . . . . . . . . . . . .. . . . . . . . . . . €
                                                                                                                                                                          . . . . . . . . . . . . . . 8€
  . Federal and State Support Have Been Important Elements
    Of Effective Programs. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

CONCLUSION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . €
APPENDIX A: Description of Selected Six
                                                                                            Respite Programs. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A­

                                           HIV/AIDS Respite Program . . . . . . : . . . . . . . . . . . . . . . . . . . . . . . . . A-€
                                           Brooklyn, New York€

                                           Family Support Services of the Bay Area. . . . . . . . . . . . . . . . . . . . . .. A-
                                           Oakland , California

                                          Harris County Foster Parent Respite Program. . . . . . . . . . . . . . . . . .. A-€
                                          Houston , Texas€

                                          People Places ,                                                Incorporated. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. A-
                                          Staunton , Virginia

                                          Vermont Foster Care Program. . . . . . . . . . . . . . . . . . . . . . . . . . . . .. A
                                          Waterbury, Vermont €
                                         Fragile Infant Special Care Program . . . . . . . . . . . . . . . . . . . . . . . .. A-€
                                         San Francisco , California
                            INTRODUCTION€
PUROSE
To describe characteristics of effective programs which provide respite care servces to€
foster parents.

Numer Of Foster Chilen      Increasg While    Number Of Foster Home Decreasg

The number of children entering foster care increased about 74 percent in the past
ten years. The National Foster Parent Association (NFPA) and the Administration for€
Children and Familes (ACF), Department of Health and Human Servces (HHS),
estimated that 259 000 foster care children in 1983 increased to about 450 000 in 1992.
Foster care children reside in a variety of settings , including family foster homes , group
homes , and institutions.

While the number of foster children continues to increase , the number of foster homes
and foster parents continues to decline. The NFPA estimates that the number of
licensed foster homes declined by nearly 11 percent between 1983 and 1992 , from
approximately 140 000 to 125 000. The NFPA estimates that only about 100 000 of the
125 000 licensed foster homes in 1992 were available to accept a foster child
placement.


                    (In Thousands)
             500
                                                           450

             400


             300             259


             200€
                                      140€
                                                                     125€

             100€



                              1983                            1992

                        -FOSTER CHILDREN           E2FOSTER HOMES
 Specil Need Foster Care     Chilen   Increase DeTlnd On Availble Foster Parents
 In addition to the increasing number of foster care children , available foster parents
 are frequently asked to care for foster children with special needs.   Special needs
 children are tyically medically fragile ,
                                       handicapped , or seriously il. They may suffer
from fetal alcohol syndrome , or from exposure to HIV and drugs. According to a
1992 ACF report written by James Bell Associates , children entering foster care today
have more emotional and behavioral problems than ever before.

Such children require a greater level of time and attention than many foster parents
are able , or willng, to give. According to the Bell report , it may become increasingly
diffcult to recruit and retain foster parents who are wiling to care for special needs
children. This is particularly true for single foster parents who comprise between 28
and 32 percent of all foster parents , according to the Single Foster Parent Network.
The head of the Network said that special needs children place a potentially greater
demand on single foster parents than on couples who may share foster care duties.

Respite Care May Help Retain Foster Parents

Foster care experts and advocates generally agree that respite care for foster parents
is important for recruiting and retaining foster parents. It also helps prevent out-of-
home placement of children. For example , a 1992 HHS report stated that respite care
is important for relieving social , economic, and financial stress among families with
special needs children , including foster familes. Further the Director, Information and
Servces Office , National Foster Parent Association , stated that respite care is the most
important factor for retaining foster parents--particularly those caring for special needs
children. The James Bell Associates study showed that foster parents may not be
willng to care for special needs children unless respite care and other support services
are available. The Bell report showed that current and former foster parents
identified respite servces as the fourth most important un met servce need for them.
The first three were counseling, day care, and health care that is not covered by
Medicaid.

To the extent that respite care helps retain foster parents , it can help keep foster care
children out of " at risk" environments and institutions. Federal statutes and HHS

like setting possible.
regulations require foster children to be placed in the least restrictive and most family-


However, little information exists on what /espite care programs are available and
which ones are effective. According to the experts we intervi wed , such information
would be useful to communities and organizations which are interested in designing
respite care programs. They could learn from existing programs and Pfrhaps adopt
methods that have proven effective.
Fedral Suppon For                  Respite Care For Foster Parents

Typically, Federal funds for respite care have been made available as part of other
family and children programs. As a result , we could not readily determine the extent
of Federal funding and support for foster parent respite care servces.

The HHS has supported respite care through demonstration grant projects authorized
by the Temporary Child Care for Children with Disabilties and Crisis Nursery Act.
The Administration for Children and Familes (ACF), HHS , administers the grants. In
addition , the ACF funds a center charged with providing technical assistance , training,
evaluation , and research to demonstration project grantees. The center, located in
Chapel Hil , North Carolina , is called the Access to Respite Care and Help (ARCH).
The ARCH publishes and distributes a quarterly newsletter to approximately 600
organizations that have some involvement in foster care and respite care programs.
Beginning in 1994 , ARCH plans to serve as a referral system for foster parents
seeking respite care.
More recently, Federal support for the provision of respite care for foster parents has
been broadened by funding for Family Preservation and Family Support Services. The
Omnibus Budget Reconciliation Act of 19S3 authorized funds for States to plan and
implement servces intended to keep famEies together and tdstrengthen them. Each
State child welfare agency desiring funds must develop and submit a five-year plan to
the Department by June of 1995. Respite care for both biological and foster parents
is one tye of family preservation and one type of family support servce which a State
may elect to include in their five-year plan. Respite care , however, is not mandated.

Finally, the HHS funds and administers several other programs that agencies serving
foster children may use to obtain respite services for foster parents. They include

           Maternal and Child Health Services Block Grants

           Medicaid

           Social Servces Block Grants

           HHS' Abandoned Infants Assistance Program , and

           HHS' Child Welfare Research and Demonstration Program.

SCOPE

We included six programs which provide respite care for foster parents
The selected programs are listed below.                                  in our study.



           The HIV/AIS Respite Program in Brooklyn, New York
       The Family Support Servces of the Bay Area Program in Oakland , California€

       The Harrs County Foster Parent Respite Program in Houston , Texas

       The People Places, Incorporated Foster Care Program in Staunton , Virginia

       State of Vermont Foster Care Program , Department of Social and
       Rehabilitation Servces , Agency of Human Services , Waterbury, Vermont

       The Fragile Infant Special Care Program in San Francisco, Caliornia

METIODOLOGY
We conducted case studies of six programs selected from 27 that child welfare experts
and public officials operating child welfare programs recognized as effective at
providing respite care. We defined respite care as planned , temporary, periodic relief
from foster care responsibilities for foster parents. Respite care is intended to relieve€
stress and prevent disruption of placements of foster children. To identify programs
that are recognized as providing effective respite care , we intervewed experts in the
child welfare field. We included the

       Administration for Children and Familes , HHS

       National Foster Parent Association



       American Public Welfare Association

       Child Welfare League of America

       Access to Respite Care and Help (ARCH),

       Abandoned Infants Assistance Resource Center, and

       National Foster Care Resource Center.

The experts we intervewed based their opinion that respite care programs were
effective on several factors. The criteria most often cited included (1) respite care
program longevity, (2) widespread reputation in the child welfare field for excellent
respite and foster care -- i.e. , recognition as a model program and selection for€
awards , (3) increases in the number of foster care familes served by respite care
providers since starting a respite care program , and increases in the number of respite
care providers , (4) decreases in turnover of foster parents and disruptiqn of
placements of foster children , and (5) clear policies and procedures for respite care.

Using information obtained from experts and public officials , we selected six respite€
care programs that provided wide geographic dispersion throughout the United States.
We also structured our selection of programs to obtain representation of urban and€
rural populations , public and private administration , and a variety of target
populations.

To identify and describe characteristics of effective programs , we conducted on-site
case studies of each selected program. We intervewed program officials using a
standardized discussion guide and reviewed applicable program policies , procedures
and performance records.

We conducted this inspection in accordance with the 

                                                       Quality Standards for Inspections€
issued by the President's Council on Integiity and Efficiency.

Concurrently with this inspection , we performed an inspection to determine availability
and use of respite care for foster parents. In performing this companion inspection
we surveyed 12 State and 66 local foster care agencies and 11 State Foster Parent
Associations. The results of that inspection are presented in an OIG report titled€
 Respite Care for Foster Parents " (OEI- 04-93- 00070). That report provides

information on the availability of respite care , use of respite care , the primary source€
of respite care providers , and barriers to respite care use.
                                 FINDINGS€
REPIT CAR CAN BE PROVIED EFFCfL                          Y IN VARIOUS WAYS
No single model program or blueprint is essential for providing respite care to .foster
parents. According to the experts and public officials we interviewed , all six programs
we examined effectively provide respite care to foster parents. Yet , the programs
were diverse. The programs differed in a number of important ways , including
(1) program management , (2) program requirements for respite services , (3) criteria
for providing respite care , (4) settings for respite care , (5) types. of respite care
providers , (6) payment methods , and (7) target populations. Appendix A contains a
description of each effective program.

Respite Prgrams Were Managed By Pu/it;     and Prvate Agencie
Public agencies managed and operated three of the six respite programs we examined
and private agencies managed the remaining three. The three pubJic programs were
in Vermont , Harris County, Texas , and San Francisco , California. The private respite
programs were in Brooklyn , New York , Oakland , California , and Staunton , Virginia.

Respite Programs Had Diferent   Requirements For Using Respite Care


The six recognized respite programs we studied had various requirements for foster€
parent use of respite care. To ilustrate, the Fragile Infant Special Care Program in€
San Francisco required foster parents to use 50 hours of respite care each month.€

Conversely, the Family Support Services Program in Oakland and the HIV/AIDS
Respite Program in Brooklyn allowed respite care within specified limits , but did not
require a specific number of hours. The Oakland program allotted families a yearly
number of hours and allowed them to use those hours on an as-needed basis each€
month. The Brooklyn program allowed 15 hours of respite care per week , with
additional respite during emergencies.€

Finally, three of the six programs allowed respite care on a case- by-case basis. They
were the People Places , Inc. , in Staunton , Virginia; the Harris County program in
Texas; and the State program in Vermont. These programs set no limits or
parameters on the amount of respite care foster parents should or could use.
However , respite care in the Harris Coun1y program was available only on weekends.€

Respite Care Was Provided In Diferent Sel'ings€

The six programs we studied provided respite. care in various settings. For example
the Harris County, Texas program provided respite care only in out-of- home settings.
In such instances , a respite care provider might keep a foster child in their home
during a weekend to provide a respite break for the child' s foster parent. Conversely,
 the HIV/AIDS Respite Program in Brooklyn, New York generally provided respite to
 foster parents only through in- home settings. In such instances , a respite care provider
 would come to a foster parent's home to care for the foster children. The Family
 Support Servces of the Bay Area offered both in- home and out-of- home respite.

 Some programs considered the performance of certain daily activities and tasks as a€
 form of respite. For example , the Family Support Servces of the Bay Area in€
 Oakland , California , provided in-home respite services and also considered a
 recreational outing for a foster child to be a form of respite for foster parents. Also
 the HIV/AIDS Respite Program in Brooklyn considered the provision of a respite
 provider to take a foster child to a medical appointment as respite for a foster parent.
 Likewise , the Brooklyn program provided respite for foster parents by providing a
 respite provider to give bedside attention for a hospitalized foster child.

Respite      Prms              Used Diferent Type Providers



The six respite programs we examined used various types of respite care providers.
To ilustrate, the HIV/AIDS Respite Program in Brooklyn and the Family Support
Services of the Bay Area in Oakland used paid full or part- time employees to provide€
respite. People Places , Inc. , in Staunton , Virginia allowed respite care to be provided
only by another foster family enrolled in their program.

Conversely, The Harris County Foster Parent Respite Program in Texas uses all€
volunteers for providing respite care. This is somewhat unique for a public program.€
Finally, foster parents in the Vermont and San Francisco programs and the Family€
Support Servces of the Bay Area were allowed to find their own respite care€
providers. The respite providers they found , however, had to be approved by
appropriate foster care agency officials.

Diferent Metho Used To Pay For Respite Care€

The six respite programs we studied used various methods to pay for respite care. 

ilustrate , the Harris County Foster Parent Respite Program in Texas did not pay
volunteers who provided respite care. The county foster care agency, however
required foster parents who used respite care to contribute $5 per day per foster child
to a volunteer, as a token of appreciation. Two other programs , Brooklyn and
Oakland , paid full and part-time employees who . provided respite care. In Brooklyn,
the payments ranged from $6 per hour for up to two children to $9 per hour for three
or more children. In Oakland , the payments ranged between $6 to $8 per hour€
depending on the number of children , and full time providers also received some
agency fringe benefits.

Two other programs used creative methods to pay for respite care. 

                                                                                      example€
People Places ,           Inc. in Virginia debited a custodial foster parent for the hours of
respite care received and transferred that a::nount to a foster parent who provided
respite care. Likewise , foster parents in V rmont who received respite care initially
     paid a respite care provider themselves and then subsequently obtained
     reimbursement as a monthly expense.

    Diferences         In   Target Popultions

    The six programs we studied were successful at finding respite care providers who
    could care for children with a wide variety of needs. Four of the respite programs
    examined served foster parents of special needs children. For example
                                                                             , the Brooklyn
    program served children with HIV/AIDS. The Staunton , Virginia program served
    severely emotionally disturbed foster children. Both the
                                                             Oakland and San Francisco
    California programs served foster parents of medically fragile , vulnerable
                                                                                , and
    extremely il foster children.

   The program in Harris County, Texas served any foster parent in the county.
   However, not all volunteer respite providers had the. skils to care for foster children
   with severe physical ,        emotional , or behavioral problems. Likewise , the remaining
. program , Vermont , offered respite care to any foster parent in the State
                                                                                    , when
   appropriate and necessary.€


   EFFCf REPIT                       PROGRAS       SHA SOME COMMON
   CHCTRISTICS
  Respite Care Was Establishe To Meet A Specifc Need

  Each of the six programs we inspected developed respite care as an integral part of
  their overall mission. For example, in 1980 a foster parent group in Vermont
  surveyed foster parents statewide to identify their support service needs. The survey
  showed that the foster parents said respite care was the most needed service. The
 foster parent group subsequently obtainecl funding from the State legislature for
 respite care.€


 Family Support Servces of the Bay Area in Oakland , California was developed to
 continue and expand the respite program which had been under the auspices of the
 Children s Home Society. The Bay Area regional centers and Alameda County
 Services Department strongly supported this new agency so that servces to theirSocial
 clientele would not be eliminated.

Affiatin         Wih        Establihe Organiztions Tht Served   Foster Chilen
All six programs we inspected evolved from other larger programs that served foster
children. All six continue to be affiliated with other larger programs. One program is
a component of a larger foster care program which serves severely emqtionally
disturbed children. Three of our selected six programs are part of foster care
                                                                               systems
administered by local or State government. The remaining two are part of .
multipurpose , private, nonprofit organizations which provide a variety of services to
children , including children with special needs.
Larger organizations provided essential elements for starting a respite program , such€
as financial support , administrative support , and credibility with foster parents. For
example , the HIV/AIDS Respite Program in Brooklyn , New York is administered by
Brookwood Child Care. Brookwood Child Care is a private agency financed through a
State contract to provide a full range of foster care, adoptive, and preventive servces.
Likewise, People Places , Inc. , in Staunton , Virginia makes respite care available as
part of a treatment foster care program servng severely emotionally disturbed
children. Program managers recognized the importance of respite care and made it€
available to foster parents from the very beginning of the program.

Promote Teamwork And      Trt€
Officials at the six programs we reviewed said that teamwork and trust have a
significant effect on the use of respite care by foster parents. For example, program
officials at two of the six programs said that foster parents initially did not request and€
use respite care services to the extent anticipated. They said foster parents did not€
trust respite care providers. Foster parents feared respite providers were spying on€
them to determine their performance as foster parents. They also feared that respite€
care providers did not possess adequate skils and depth of concern needed to care for€
their foster children. Some foster parents also feared that using respite care would€
suggest a weakness such as insufficient commitment and inability to cope with the€
stress and demands of fostering.

One respite program manager found that using a team approach for all facets of€
foster care , including respite care, helped alleviate fears about using respite ' care. He
negotiates a " Family Foster Care Teamwork Agreement " with foster parents when a
foster child is placed with them. The agreement is signed by agency staff and foster
parents. It serves as a contract in which everyone is equal partners. It stipulates that
respite care is an acceptable support servce which the agency sanctions and
encourages. This approach allows foster parents to have input into decisions regarding
their foster child rather than the foster care agency dictating all decisions.


The manager of People Places , Inc. , in Staunton , Virginia uses a team approach to
foster care. The team approach allows foster parents to become involved in all phases
of care for their foster children , including respite care. The team approach allows
foster parents access to the program manager and involvement in decision making. In
this way, foster parents help control care for their foster children. The program€
manager believes that when foster parents feel in control , stress is alleviated or€
minimized. As a result , a need for respite servces is minimized. However, respite
care is always available and is provided when a foster family and program staff identify
a need for it.

Screen, Train And Monitor Respite Providers€

Managers and staff of the six programs we studied have developed procedures for€
screening, training, and monitoring respite care providers to assure quality care. To€
ilustrate, the procedures used byfour of the six selected programs are highlighted
below.

Screenig Applicants: To screen respite providers , the Harris County Foster Parent€
Respite Program staff subject each applicant to the same background investigation as€
they perform on potential foster parents. They check, for example , such records as€
arrest , conviction , traffc violations , and child abuse. If a respite provider applicant
has not been a State resident for at least three years , they check FBI criminal records.
Additionally, they intervew relatives and acquaintances to screen respite provider€
applicants.€

Respite provider applicants at the HIV/AIDS Respite Program in Brooklyn, New
York are screened through a State central registry. Applicants also provide references€
which are checked. Further, respite proviaer applicants must pass a medical
examination.

The State of Vermont Department of Sodal and Rehabiltation Servces program staff
also screen respite provider applicants through a State central registry. Further, they
must pass a Federal criminal background check.

Likewise , staff of the Fragile Infant Special Care Program in San Francisco , Caliornia€
screen respite provider applicants through a State criminal records system to ascertain

their suitability for caring for foster children. Family Support Servces of the Bay Area€
in Oakland , California thoroughly interviews each applicant , requires at least three€
reference checks , tuberculosis clearance , Department of Motor Vehicles clearance€
and also accesses the State s criminal records via fingerprint checks.


Traig Respite Providers: The staff of the HIV/AIDS Respite Program in Brooklyn€
require each respite provider to attend two full days of training. One day is a general€
course on foster care and respite care , and the second day is on HIV. The HIV€
course is administered by a local university. Further, each respite provider must€
attend two hours of in-service training every six weeks.

Program officials in the Vermont Department of Social and Rehabilitation Services€
encourage , but do not require, respite providers to attend the same 8-week training
course that new foster parents must attend.

Monitorig Respite Provider Performance: The staff of the Harris County Foster
Parent Respite Program in Houston , Texas monitor respite provider performance
through use of a questionnaire. The questionnaire is sent to both foster parents and
respite providers after each respite experience. It is specifically focussed on getting
feedback on the performance of respite providers and experiences duriflg respite.

The staff of the HIV/AIDS Respite Program in Brooklyn monitor respite provider€
performance by intervewing foster famiJes who use respite providers. The intervews€
are conducted weekly either by phone or face- to-face. Among other purposes , the€
intervews focus on determining the satisfaction of foster parents with performance of€
respite providers.€

Flle Opeatins To Meet Changig Need€
None of the six recognized programs we inspected were static. Program staff all€
attributed their success partly to a wilingness to adjust program policies and€
operations as needed. For example , the HIV/AIDS Respite Program in Brooklyn,€
New York initially used other foster parents as their primary source of respite€
providers. However , other foster parents proved not to be the best source of respite€
providers. They were good and competent as respite providers , but once they€
accepted a foster child of their own they did not always continue servng as a respite€
provider. The program director made a needed adjustment and - began advertising for€
people who could serve as respite providers full- time. The director found that this€
was the best way to assure having quality respite providers when needed.€

The program staff of the Harris County Foster Parent Respite Program in Texas had€
to adjust their program to increase use of respite care by foster parents. They initially€
assumed that foster parents would all want and use respite care if it was made €
available. This proved to be an incorrect cssumption. They then initiated program€
activities specifically focussed on educatinf, foster parents about the benefits of respite€
care. Their program is now growing in the number of foster parents who use respite€
care and in the number of volunteers who provide respite care.€

FEDERA AN STATE SUPPORT HAVE BEEN IMORTAN ELEMENT€
EFFCT PROGRAS€
All six programs received Federal or State financial support when started , or they€
made program enhancements with government funds. Two of the six programs€
received Federal financial support to get started or they evolved from other Federally€
funded programs. To ilustrate , the Harris County Texas Children s Protective€
Services obtained an HHS discretionary grant to determine community approaches to€
foster parent recruitment and retention. The grant project identified respite care as€
an important support service to help retain foster parents. This led to the creation of€
the Harris County Foster Parent Respite Program. In Brooklyn, New York; the€
HIV/AIDS Respite Program started with a grant from HHS and some matching local€
funds. Due to delays in obtaining a continuation on their Federal grant, the parent€
organization for the Brooklyn program recently assumed full financial responsibilty for€
the respite program.€

A third program , People Places , Inc. in Virginia , was started with private funds but€
later received Federal funds from various sources , including Title XX or the Social€
Security Act , as payment for program services.€

A fourth program started with county funds and later obtained State grant funds for€
program enhancements. This program , the Fragile Infant Special Care Program in€
San Francisco, received State demonstration funds two years after the program began.
Those funds were used for program enhancements such as hiring a consultant
psychologist and paying for program staff and foster parents to attend conferences. It
is now funded by a combination of Federal , State , and county funds and some private
donations.

A fifth program started with State funds , but now operates with Federal funds. The
State of Vermont began its respite care program with $50 000 of State funds after
foster parents approached the State legislature. However, in Vermont most respite
care for foster parents is now paid for with Federal funds channeled through the State.

The sixh program ,   the Family Support Servces of the Bay Area program in Oakland
California , was able to expand respite care servces for foster parents to four
surrounding counties with HHS funds channeled through the State of California.
Those funds were made available through the Temporary Child Care for Children with
Disabilties and Crisis Nursery Act. The program manager said if Federal funding is
not continued , the four counties will either have to absorb the full costs of respite
services or discontinue them.

CONCLUSION

This report shows that while recognized , successful respite programs differ, certain
program elements are common to each. The Administration for Children and
Families should provide information on recognized effective respite care practices to
States , counties and private sector organizations. Such information wil help officials
involved in developing respite care programs learn what works. For example , public
and private sector officials involved in devdoping State five-year plans to implement
Family Preservation and Family Support Services authorized by the Omnibus Budget
Reconciliation Act of 1993 should find information on respite care particularly helpful.

Another OIG report that can be useful in planning respite services is titled " Respite
Care Servces for Foster Parents " (OEI- 04-93- 00070). That report provides
information on the availability of respite care , use of respite care , the primary source
of respite care providers , and barriers to respite care use.
                                 APPENDIX A€

 DESCRIPON OF SELECTD PROGRAS THT PROVIE REPIT CAR


HIV/AIDS Respite Program€                 Brooklyn, New York€
Family Support Servces
of the Bay Area                           Oakland , California

Harris County Foster Parent€
Respite Program                           Houston , Texas

People Places ,   Incorporated            Staunton , Virginia
Vermont Foster Care Program               Waterbury, Vermont
Fragile Infant Special Care Program       San Francisco , California
                             HI/AIS REPIT PROGRA
                                   BROOKLYN, NEW YORK

Prgram Development


The respite program is administered by Brookwood Child Care , a private agency
under contract with the State of New York to provide a full range of foster care
adoptive, and preventive servces in Brooklyn. In 1989, Brookwood found that it was
servng an increasing number of HIV -infected children as drug addicted parents
abandoned their babies in hospitals or became unable to care for them. Brookwood
established the HIV/AIDS Respite Program (HARP) to provide intermittent
temporary relief to foster parents of foster children with HIV and AIDS. The
objective is to enhance family life , and the life of an HIV- positive child , and to prevent
disruption of stable foster care placements.

Program Operatin


The respite program is run by a full- time director and administrative assistant. A
foster family which is referred for respite care is matched with a respite provider
according to geographic proximity and care needs. HARP staff make a home visit to
a family foster home to determine service needs , understand the foster family routine
and set up a respite care schedule.



Respite care is generally provided in a family foster home. However, it can also
include escorting children for clinic visits and providing respite to a foster parent at a
hospital when an HIV- infected child is hospitalized. Up to 15 hours of respite per
week, plus emergency respite, is allowed. The agency placed a limit on the amount of
respite care because they found too much respite care can compromise the
relationship between a foster parent and a foster child. Further , a respite provider
can get too involved with a foster family and suffer " burn out.

Respite care providers must complete an employment application , pass a medical
exam , provide references , and receive clearance from the State Central Registry.
Respite providers are required to complete training performed by the Brookwood
staff, including modules on precautions for families and caregivers; behavior
management; stress management and grief education; a one- day course on HIV given
by a local university; and a two- hour in-servce training meeting every six weeks.

Foster parents do not pay for respite care and do not forfeit their regular foster care
board payments for respite periods. Providers receive $6 per hour for caring for 1-
children , and $9 per hour for 3 or more children. Respite providers are also paid for
attending all training sessions.

The Brooklyn program developed written policies and procedures for providing respite
care , including rules on administering medications , confidentiality statements , and how
to handle and report emergencies. They have also developed a training manual.


                                          A-2
                                        ---
Progam Use€

The results of a 1992 survey of foster parents and respite providers showed that 83
percent of foster parents used respite care at least once a week. Further , 66 percent
of the surveyed foster parents said they could use additional hours of respite care.
HAP is currently providing some respite to all foster families served by the
Brookwood agency who have HIV- positive children. However, they are serving only
three foster familes from all other foster care agencies in Brooklyn. According to the
director of the respite care program , other agencies in their servce area are unable or€
unwiling to finance respite servces.
Initial barriers to using respite care included a Jack of awareness that the servces
existed , fear that wanting respite sends a message that foster parents are not doing a
good job ,   and concern that respite care providers are sent to spy on foster parents.
The director used a variety of techniques to overcome such barriers. She conducted
all HIV training at the agency and sat in on case consultations to develop greater
collegiality with caseworkers. She also reached out to foster parents directly, offering
information and a sympathetic ear. Gradually foster parents began to look upon€
respite care as part of a continuum of foster care.

State and COlUly Agenc Role

The program initially received an 18-month Federal grant from the Administration for€
Children , Youth and Familes , which was channeled through the State of New York.
The grant provided $65 000 in Federal funds plus a one- quarter local match for a total
of $86 500. Due to delays in obtaining continuation grant funds , Brookwood recently
assumed financial support for the respite program. In addition , Brookwood
supplements respite program funding with private funds from its foundation grants.

Characteritics of Effectivenes

The HARP is a small program under the auspices of a large, well-established private
foster care agency. The larger agency provided financial support and its professional
stature to the respite program. HARP officials attribute the program s success to a
combination of structure and support of the larger Brookwood agency, and the
leadership and dedication of the HARP program director.€

Brookwood has quality assurance standards which HAP is required to meet. In
addition , the respite director monitors her program by maintaining weekly, informal
contact with respite care providers and periodic visits to family foster homes. She has
found that casual encouragement and reinforcement are effective ways to assure
retention of respite providers. As part of Federal grant requirements
conducted a final evaluation. The evaluation showed that respite care, fhe
                                                                         is a program
                                                                              needed
servce for all family members of an HIV- positive child , respite providers can be more
effectively recruited from the general public than from other foster parents , and most
foster care agencies in their service area cannot afford respite care.€


                                           A - 3€
 Uniq Prm Featues€
The most unique feature of this project is that it serves an entire foster family, not just
an HIV- positive foster child in a foster family. Because the HARP serves an HIV
population , the respite director reported that she initially had a difficult time locating
sources of information about designing and administering a respite care program for
populations with special needs. Ultimately she used the Access to Respite Care and€
Help (ARCH), a center in Chapel Hil , North Carolina funded by HHS. The ARCH€
serves as a national clearinghouse for respite care and crisis nursery programs. She€
said ARCH continues to be a valuable source of information for her and a link to€
other programs.



Can the   prom be repliated
The director feels the program can be replicated at other sites that serve HIV-infected
foster children. She believes that to do so successfully, an agency should establish a
funding base , associate itself with an established child care agency in the community,
and develop personal linkages with other professionals and potential users in the
community.

Other organizations have recognized the Brooklyn program as an effective model.
The Child Welfare League of America invited the project coordinator to present a
workshop on respite care for HIV-affected familes. The director also made a
presentation about HAP at the National Conference of Respite Care Programs an!:
Crisis Nurseries in Washington , D. C. In addition , the ARCH selected HAP to
part of an evaluation process of innovative programs.



Contact for informtion€

Marilyn Barney, Director of Respite Care (718- 596- 5555 ,   extension 530)




                                         A - 4€
                           FAMY SUPPORT         SERVICE OF TH BAY
                                             OAK, CALORN
 Program Development

 Family Support Servces of the Bay Area (FSS) is a private , non- profit organization.
 It provides respite care and other support servces to parents , relative caregivers , and
 foster parents of vulnerable children. The FSS contracts with four Bay Area counties
 foster care agencies , which selectively refer familes for services. The four counties
 served are San Francisco , Contra Costa , Alameda , and San Mateo.

 The FSS has its roots in the Children s Home Society (Society), a non- profit
multipurpose children s servces agency servng the State of California. The Society
provided respite care to familes of developmentally disabled children from 1979 to
 1989. In 1988 , respite care was expanded to include both in- home and ollt-of-home
respite to foster parents who provide emergency foster care in Alameda County. In
 1989 , the Society planned to eliminate respite care. Program directors , however
decided respite care should be expanded , not terminated. They opened the Family
Support Servces of the Bay Area on January
                                                 1990 , with no interruption in servces
and have continued to expand the respite program to different populations ' in four Bay
Area counties.

In the fall of 1990, the State of California Department of Social Servces , Office of
Child Abuse Prevention received a grant from the Children s Bureau of HHS. With
this grant , respite care was expanded through FSS to even more foster parents in the
four counties. Each county selected its own target population for the expanded
services. San Francisco County offered respite services to relative foster parents. San
Mateo and Contra Costa Counties offered respite to foster parents of medically fragile
children , and Alameda County s expanded services included non-emergency, out-of-
home respite care for foster parents of medically fragile children. Contra Costa
County, however, did not renew their contract with the FSS because of severe county
budget cuts.

Program Operation

The foster care agencies in the four counties determine which foster parents are
eligible for servces from FSS. After a cOllnty agency has referred a foster parent to
FSS , program staff contact the parent by t-:lephone or conduct a home visit. Services
and responsibilties are explained and foster parents are given instructions on how to
arrange respite care. When respite care is requested , an FSS employee matches a
foster parent's needs with one or more appropriate respite providers. Foster parents
do not pay for respite , nor are their maintenance payments affected bYlthe use of
respite care.


Foster parents are given a yearly allotment of respite hours which they can use
according to their needs. Some schedule monthly respites while others save their


                                                 A-5
hours for a long trip or potential crisis. In most situations , a respite care provider may
come into a home or take a foster child on an outing, such as a trip to a park or
playground. Out-of- home care is also available on a limited basis.

Respite care workers are recruited continuously. Recruitment is targeted based on an
assessment of foster family needs by FSS intake staff. Respite providers are screened
and receive a minim)Jm of 26 hours of training initially, with optional in-service
training offered quarterly. Providers are paid between $6 - $8 per hour , depending on
the number of children for whom care is provided. Five respite care providers are
full- time employees , who receive additional benefits , and are able to work virtually any
hours.

Program Use


Respite care is so well used that FSS is not able to meet all requests. About 98
percent of all requests for respite care are met. Currently approximately 200 respite
care workers serve 400 familes , of which about half are foster families.

State and County Agency Role€

FSS and the county agencies seem to do a good job of generating foster parent
interest in respite care. Each of the four county foster care agencies decides who may€


foster parents.
receive respite servces and how many hours they are allotted. FSS supplies the
counties with biling sheets showing how many hours of care were provided to which


Characteritics of Effectivenes€

The mission statement of FSS guides their practices. FSS has written policies€
procedures and forms to ensure that servces are tracked appropriately and uniformly.€
This helps assure continuity of servces despite changes in staff. The FSS is strongly€
committed to training and servce , and the four county agencies are committed to
using respite care whenever possible.€

The program has been featured in a newsletter published by the Access to Respite€
Care and Help (ARCH), a national clearinghouse for respite and crisis nursery
programs funded by HHS. In addition to this favorable publicity, other evidence of
program effectiveness include expansion of services and growth through additional
county and State contracts.€

FSS is currently awaiting results of a survey by the Family Welfare Research Group of€
the University of California , Berkeley, to d termine parent satisfaction ,and the effects€
of respite care on the foster parents and relative caregivers participating in the€
Federal grant. Initial responses to the survey indicate that 94 percent of foster parents
felt a need for respite care. They identified benefits of respite care, including stress
reduction , opportunities to spend more time with spouses and other children , and


                                          A-6
needed emotional support. Informal study shows     that foster children also benefit from
having less stressed foster parents. Further, they enjoy the variety and undivided
attention that respite caregivers provide.


Uniq Prm         Featues€

By hiring full- time providers the program has been able to meet nearly all demands
for servces , including demands from foster parents who need daytime respite.

In addition , the agency regards respite workers as quasi-caseworkers. Respite care
workers are in foster homes more frequently than county agency caseworkers.
Therefore, they assist both by monitoring foster homes and by "modeling" appropriate
behavior for foster care parents , such as appropriate disciplining.

Can this respite care program be replicated€

This program can be replicated. Program officials have , in fact , been asked to create
a respite care model program for the ARCH.

Contact for   informtin€
Judy Levin (510- 261- 2282)€




                                         A - 7€
             HAIS COUN FOSTER PARNT REPIT PROGRA
                                    HOUSTON, TEXA

Prgram Development€

In 1987 ,
       the Harris County Children s Protective Servces, within the Texas
Department of Protective and Regulatory Servces , received an HHS discretionary
grant to demonstrate community approaches to foster parent recruitment and


1990.
retention. That demonstration grant      showed that respite care was needed to help
recruit and retain foster parents. The respite care program become operational in


Program Operatin€

The Harris County respite care program uses volunteer respite care providers. All
respite care is out-of-home , and is only available on weekends from 5:00 p. m. Friday
to 5:00 p. m. Sunday. Volunteers are required to commit to at least four weekends a
year. The program encompasses Harris County, which includes Houston , Texas. All
foster parents in Harris County are eligible for respite servces.

The County has no specific funding for respite care services. Volunteers provide the
servce at no cost to the agency. There are , however, two full- time staff employed by
the Harris County Children s Protective Servces who direct , plan and coordinate the
program. While foster parents are not required to pay a fee for respite care, they are
encouraged to contribute $5. 00 per day/per child to a respite volunteer.€

The same background check is performed for respite care providers as is performed
for foster parents. It includes   checking Department of Public Safety, Child Protective
Servces , local police department records , and interviewing relatives and acquaintances.
An FBI fingerprint and criminal records check are also performed for individuals who
have not been residents of Texas for at least three years. The agency would like
eventually expand the screening process to include psychological assessments of
potential providers.€


Progam Use€

The respite care program is steadily growing. In 1990 , 33 requests for respite were
received. By 1992 ,   the number of requests had risen to 158. The number of providers
also increased , from 15 individuals in 1990 to 88 individuals in 1992. In 1990, when
the program began , 28 foster children were served. By 1992, that number had
increased to 382 foster children. The demand for respite , however, has reached a
point that the program can no longer fil all requests due to a limited
providers.                                                               Ijumber of




                                           A - 8

 Barriers to foster parents using respite servces include transportation problems and
 distances to providers. To help resolve these problems , the respite care staff try to
match foster parents and respite providers.

State and County Agency Role

The Harris County Children s Protective Servces devotes a lot of attention to
encouraging foster parents to use respite care servces , and to the recruitment and
retention of volunteer respite care providers. They promote respite care through
public service announcements, distribution of printed materials such as brochures , and
attendance at . meetings. A flyer on respite care is included in each foster parent
application packet. In addition ,   the foster care respite coordinator helps with foster
care parent pre-servce training.

Agency staff attempt to match foster families and children with respite providers.
They do so by evaluating geographic location , age , skills , family composition and needs
of foster and biological children. The agency coordinates and finds respite providers
for weekend care. The agency then puts a respite volunteer !n touch with the foster
parent who finalizes the arrangements. Transportation to and from the volunteer
respite provider s residence is the responsibilty of a foster parent. However, some
respite providers will assist with transportation for a foster child.

Both respite providers and foster parents using respite care services are required to€
have a signed agreement with the Harris County Children s Protective Services. After€
each respite. weekend is completed , the respite coordinator sends a questionnaire to€
both foster parents and respite providers to evaluate the impact of respite care on a€
child. Both positive experiences and significant problems are discussed and
documented. Additionally, the coordinator maintains data which tracks who is using
respite , where , and how often.

Characteritics of Effectivenes

Three factors contribute significantly to the effectiveness of the Harris County
program. They are 1) Federal assistance in the form of a 1987 HHS discretionary
grant to help plan and develop the respite program; 2) using volunteers to provide
respite care; and 3) a total commitment from the Harris County Children s Protective
Servces and everyone in the program to providing respite care.

Program officials . attribute more successful recruitment and better retention of foster
parents in part to the respite care program. Prior to implementation of the respite
care program , the turnover rate among foster parents was 25 percent. It is ' now 15
percent. For a number of years Harris County had 260 family foster h pmes. At the
time of our review that number had increased to 467.

Another indicator of program effectiveness is the high level of satisfaction with the€
respite care program.


                                           A - 9€
Uniq Prm Featues€
Using volunteers to provide respite care in a public program is the most unique€
feature of this program. The program does not have to depend on funding from          any

source.€

Can this respite care proam   be replicated€
Agency staff said the program can be replicated at other locales. The program is
flexible and can be designed around needs of foster parents. The Harris County€
Children s Protective Servces has received and continues to receive numerous requests€
from other agencies around the nation for information about its volunteer respite€
program.€

Contact for   informtin€
Pat Shaw , Respite Coordinator, Texas Department of Protective and Regulatory
Services , Harris County Children s Protective Services , Houston , Texas (713- 599- 5833)




                                         A - 10€
                          PEOPLE PlACES, INCORPORATED
                                 STAUNON,       VIGIN
Prgram Development


People Places ,   Inc. (PPI) is a treatment foster care program which includes respite
care as one support. service. PPI was established in 1973 by staff of a State residential
treatment center in Virginia. The staff believed that local foster parents might care
for center youth who needed weekend and aftercare placements. The staff initially
expected that trained , supervsed , and supported foster parents would be able to
maintain severely troubled youth for short periods without weakening the effects of
their center treatment. Over time , however, the effect of care given by the program
treatment foster parents seemed more successful than care provided by the center.
Not only did PPI successfully serve seriously disturbed youth , but it did so at roughly
one third the cost of institutional care.

Program Opeatin

Respite care was one of the available support services from the very beginning of PPI.
PPI defines respite care as " overnight respite in another treatment family foster home
for the primary purpose of providing a planned break. "    Since respite providers must
be other treatment family foster homes in the program , they have received the same
training as a child' s placement family foster parent. They also receive the same
support from PPI. 

Other forms of respite, which are not recorded in PPI's database as respite care
include outings by children with a caseworker, a summer recreation program , and
occasional babysitting by trusted relatives , neighbors , or friends. The primary purpose
of such activities is child development. Therefore, respite fonhe foster parents is a
secondary effect.

Another PPI program element which provides respite for foster parents as a secondary
effect is a group program of evening classes for foster children. The classes usually
meet once a week for eight to thirteen weeks , and are designed to develop a child'
skils necessary for continued success in society. Class subjects include finding a job
keeping a job , social skils, and human sexuality.
Another aspect of PPI's program provides a two-way respite for both birth and foster
familes. The program allows foster children to move back and forth between birth
and foster families , when issues of child safety have been resolved.

Respite may be requested by a foster parent or may be initiated by PPf. Either way,
PPI selects respite care providers for foster parents and makes all arrangements. In
some instances , PPI may transport a child to a respite provider s residence.




                                          A.. 11

Program Use

According to data maintained by PPI, 60 percent of foster parents in the program
between 1989 and 1992 used respite. Foster parents used respite care on average
87. 25 times per year, or 1.7 times per family per year. Program officials estimated
that 50 percent of the respite events invo!,ved 1 night , 35 percent involved 2 nights
and 15 percent involved more than 2 nights , but rarely more than 5 nights.

State and County Agency Role

Public agencies have no role in the services provided by PPI other than to refer   foster
childten to the program.

Characteritics of Effectivene€

PPI enjoys a high retention rate of foster familes , close to five years on average. The
national average retention rate among treatment foster families , according to a survey
of members. of the Foster Family Based Treatment Association , is four years. The
director of PPI attributes their high retention rate and low use of respite to the variety
of support servces provided by program and agency staff. He believes that just
knowing respite care is available gives program foster parents a sense of control.
asserts that if foster parents are adequately supported and feel in control then the
need for respite is mitigated.

A critical program characteristic which makes the respite component of the treatment€
foster care program successful is a meticulous process for matching a foster child with€
a respite family. To get the best possible match , PPI developed decision guides
containing twelve variables , such as each family member s age , geographic location of
the home , and nurturance. The decision guides are the same ones that PPI uses to
match a child with a foster family for placl:ment.

Uniq Program Featues
Program officials describe a variety of unique characteristics which make their€
treatment foster care program different from programs servng similar populations. A€
flat organization structure empowers all staff members to be accountable for quality
servce. It nurtures a strong sense of teamwork among staff, foster parents , and foster
children. PPI offers rewards for good behavior rather than punishing bad behavior.
Their emphasis is on supporting foster families and their foster children.

Much of PPI's success was attributed to its small size. Being small helps avoid
becoming bureaucratic and hierarchical. The organization is not const ained by
regulations which much larger public agencies might require. Its size a110ws
individualized problem solving and flexibility in how they spend their budget.
Caseloads are small and caseworkers visit each foster family twice a month at a€
minimum. Further, because they support a small number of foster familes at any€


                                         A - 12€
given time, they are able to offer 24- hour   on-call support. The on-call duty is rotated
so that stress among staff is diluted.

Can this respite care program be repliated€

Program offcials stated that the treatment foster care program , including respite care€
can be replicated elsewhere. It has been adopted by every agency to which PPI staff€
have provided technical assistance , including over 100 other sites throughout the U.S.
In addition , the Ilinois Department of Children and Family Servces mandated use of
the PPI model for its treatment foster care programs launched in 1990. Likewise the
Missouri Department of Social Servces used the PPI model for more than a half
dozen of its " Behavioral Foster Care " sites.

Contact for   Infonnlin€
Brad Bryant ,   Director of Research and Training (703- 885- 8841)€




                                          A - 13€
                         VERMONT FOSTER CAR PROGRA€
                             WATERBURY, VERMONT€

Program Development€

The Vermont Department of Social and Rehabiltation Servces (SRS) began its
respite care program in 1987. The program was developed in response to a State
Foster Parent Association survey of 400 licensed foster parents in 1986. The survey
objective was to determine what s upport servces foster parents in the State most
needed. The survey showed that€

              foster parents believed that respite care was their greatest need , and€

              foster parents had extreme difficulty attending training due to a lack of€
               caretakers for their foster children.

Furthermore , over 50 percent of the surveyed foster parents said they would be willng€
to serve as respite providers. About 90 percent said they would use a respite program
if one was available.€

The survey concluded that a paid respite program would help recruit and retain good€
foster parents in the State of Vermont.

Program Operatin€

Respite care for foster parents in Vermont is provided by the Vermont Department. of
Social and Rehabiltation Servces. The program was developed specifically to help
ensure stable foster placements. To be eligible for the program , a foster home must
be licensed by the State and must have had at least one foster child placement for at€
least six months.

A foster child' s "special needs " have nothing to do with eligibilty for respite care.
However, foster children with more severe problems may be placed in a therapeutic
foster care program , which is run by four private agencies under contract with the

their support servces.
State mental health agency. All four private agencies provide respite care as part of


Foster parents may obtain both informal and formal respite care servces. Informal
respite care is tyically provided by relatives or trusted ,   well- known neighbors. Formal
respite care services are provided by State-approved providers. The SRS can provide
recommendations or a list of approved providers to foster parents. Howevt(r, each
foster parent is free to choose any provider as long as they have been q:hecked through
the State Central Registry for criminal activity and the Federal criminal information
system.€




                                          A - 14€
                                      ---
Foster parents tyically pay respite care providers ,   then obtain reimbursement from
SRS monthly. The current rate for respite care is $3 per hour for up to 8 hours.
After 8 hours the fee is $25 per day. How much respite care any individual foster
family may use in a month is decided on a case-by-case basis. That decision is made
jointly by a district offce resource coordinator and foster parents.

Program Use

Respite care is heavily used by foster parents in Vermont , according to the State
foster care program manager. The primary barrer to foster parents using respite care
is a belief that using respite care is a sign of weakness. The State agency is tryng to
overcome this barrier, primarily by empowering foster parents and strengthening the
team concept. Another barrier is a shortage of respite care providers. Approximately
100 State-approved providers are presently available. Further, all licensed foster care
families are legally eligible to provide respite care. Vermont presently has
approximately 750 licensed foster care familes and 1200 children in foster care.

State and County Agenc Role

State- provided respite care is funded completely with Title IV- E funds and is
administered by twelve district offices of SRS. Each district office receives a portion
of the respite care budget each fiscal year. A district office share is based on
(1) a baseline percentage of the total budget and (2) a percentage based on the
number of children in foster care. The State respite care budget for FY 93 was
$51 216.

Both the State office and district offices actively encourage foster parents to use
respite care. Respite care is part of the curriculum in an 8-week , preservce training
program for new foster parents. The district office also assists by providing
transportation to a respite provider whenever a foster child is Medicaid eligible.

In an effort to strengthen the bond between SRS and foster parents , SRS recently
solicited technical assistance from the Child Welfare League of America (CWLA).
CWL heJped SRS develop a best practice program for delivery of family foster care
servces. The program is based on delivering servces through teamwork founded on
mutual trust and respect. The program identifies critical actions which should be
taken in caring for a foster child. The program formally recognizes respite care as a
key support servce in providing foster care.

Characteritics of Effectiveness


SRS has not performed any empirical analyses of the respite care pro am. However
according to agency staff, the program is working well. They said it has had an impact
on the stabilty of placements and retention of fpster parents. Data regarding the
annual turnover rate of foster parents are not available. However, the rate at which€



                                         A - 15

foster family homes close in the State has declined from 22 percent in 1985   to 19
percent in 1992.


Perhaps the most significant reason for the effectiveness and success of the foster care
system overall and the respite care program specifically is that State agency staff
district offices staff and foster parents work as a team. A team concept is strongly
supported by all levels of the State foster care agency and the Vermont Foster Parent
Association.

Uniq Pram Featues
The most unique feature of this program is the decentralized and highly flexible
decision-making process for using respite care.   Each district office is empowered to
pay for respite care for their foster parents in any manner they deem appropriate and
necessary. They have no rules limiting respite care to a set number of respite care
hours per family per month or year. The program also enjoys a strong partnership
between agency staff and foster parents.

Can this respite care program be replicated

The foster care program manager in the State headquarters of SRS believes other
States can provide similar services to their foster parents.

Contact for   informtin
Steve Dale (802- 241- 2131)




                                         A - 16

                  FRGIL INAN SPECIA CAR PROGRA
                          SAN FRCISCO, CALIFORN

Pram Development
The Fragile Infant Special Care Program , also known as " Baby Moms "    began in 1987.
It began in response to increased demand to provide family foster homes for newborn
babies requiring special care because of extreme ilness. The newborns in the
program often suffer from ilnesses caused by their biological mothers ' alcohol and
other drug addictions. Approximately one third of the babies. eI1tering the program
are HIV-positive. The county.-run program is now funded primarily by Federal , State
and county funds and private donations.

Progrm Opetin
The respite care program operates out of San Francisco County. It serves family
foster homes in some surrounding counties in which San Francisco County foster
children have been placed. The program has 15 foster homes , most of which have 2
foster children. Program policy allows up to three foster chiJdren to be placed in the
same family foster home , but only in rare circumstances.

To be licensed as a " Baby Mom " foster parent , an applicant must pass a State criminal
background check , and his or her home must pass a home inspection by county agency
staff. A foster parent in this program may not hold any other job. They must receive
30 hours of training. Further, they must meet other specific criteria such as
demonstrating a willingness to accept a child with AIDS. They must also have a
medical or childcare background , and no children in the home under age 4 years , and
no more than 1 child between ages 4 and 6 years in their home. Most foster parents
currently in the program are nurses or have a long history of servng medically fragile
children. Training for both foster parents and respite providers is performed by an
on-staff consultant nurse. Training is focussed on dealing with the specific medical
needs of a foster child. 


Each foster parent is required to take 50 paid hours of respite care a month. Foster
parents are allowed to find their own respite provider , contingent upon the provider
passing a State criminal background check. Caseworkers , the on-staff nurse , and other
foster parents informally help any foster parent having difficulty finding a respite
provider. Recruiting respite providers has not been a problem for the program. Their
experience has been that people like helping infants who are ill.

All respite care must take place in a licensed family foster home. Most respite care
therefore , takes place in the home in which the foster child has been p aced.
However, foster parents may arrange for a respite care provider to provide care to a
foster child in their own home.




                                        A - 17

 Respite care providers are paid $4 per hour for one child and $7 for two. A foster
 parent pays a respite provider directly and is reimbursed by the county after€
 submitting a monthly expense report. Although the average monthly cost for respite
 servces per foster home is around $350 per month , it is inexpensive when compared
 to the cost of placing and maintaining foster children in institutional settings. The
program also pays for babysitting. The usual respite care providers may also serve as
a babysitter.



Prgram Use


AllIS foster familes in the program used the required 50 hours of respite care each
month.

State and County Agency Role€

The county requires respite care. It is considered essential to the support of foster
parents. Foster parents are required to report respite hours on their monthly time
cards. County caseworkers review time cards to . ensure aU foster parents are getting
required respite. Any reluctant parents are reassured by caseworkers that , as
professionals , respite care is part of their job , and that they must , therefore, take it.

Characteriti of Effectivenes

A statistical indicator of the success of the program is the rate that foster children are
adopted and returned to their homes. Forty- three percent of foster children in the€
program are adopted. A few of the foster children were adopted by their foster€
parents. When a foster parent adopts , however , they are no longer eligible to serve as
foster parents in the program. Another 36 percent of children in the program are
returned to their familes.€

The Child Welfare League of America (CWLA) recently recognized the effectiveness
of this program. Baby Moms program officials have been invited to present
information about their program at Pediatric AIDS conferences sponsored by CWLA.

The keys to this program s success are a philosophy that respite services are a
necessary support for foster parents , and a policy that respite wil be treated as part of
a comprehensive set of support services for foster parents. County agency staff
believe that foster parents should be treated with the respect deserved by
professionals. Policies and procedures support the importance of foster parents and
respite care for them. Foster parents also attribute program success to the face-to-
face communication aUowed by small caseloads.




                                          A - 18€
Uniq Prm Featues€
The program has maintained a firm policy that all foster children in the program wil€
be placed only once. This policy enhances the potential for placing and keeping
children in family foster homes rather than in institutional settings.€

Can this respit care program be replicated€

Program staff said the respite care program can be replicated. It has served as a
model for programs in several other counties in California and a metropolitan area in
another State. The program continues to receive visitors who want to study and
emulate it.

Contact for informtion€

Marion Collns , Supervisor (415- 558- 2371)




                                         A - 19€
